 FEDERAL ELECTION COMMISSION 


  OFFICE OF INSPECTOR GENERAL 





            FINAL REPORT 


Audit of the Federal Election Commission’s 

  Fiscal Year 2008 Financial Statements 





             November 2008 


        ASSIGNMENT No. OIG-08-01 

                              Table of Contents

Transmittal Memorandum


Independent Auditor’s Report……………………………………………………….……1

Independent Auditor’s Report on Internal Control Over Financial Reporting……………3

Independent Auditor’s Report on Compliance and Other Matters.………………….…..20
                   FEDERAL ELECTION COMMISSION
                   WASHINGTON, D.C. 20463
                   Office of Inspector General




MEMORANDUM

TO:    	       The Commission

FROM:          	Inspector General

SUBJECT: 	     Audit of the Federal Election Commission’s Fiscal Year 2008 Financial
               Statements

DATE: 	        November 12, 2008


Pursuant to the Chief Financial Officers Act of 1990, commonly referred to as the “CFO
Act”, as amended, this letter transmits the Independent Auditor’s Report and
accompanying Independent Auditor’s Reports on Internal Control and Compliance and
Other Matters issued by Clifton Gunderson (CG-LLP) for the fiscal year ending
September 30, 2008. The audit was performed under a contract with and monitored by
the Office of Inspector General (OIG) in accordance with the auditing standards
generally accepted in the United States of America; the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller General
of the United States; and, applicable provisions of Office of Management (OMB)
Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.

Opinion on the Financial Statements

The consolidated balance sheets of the Federal Election Commission (FEC) as of
September 30, 2008 and 2007 and the related statements of net cost, changes in net cost,
changes in net position, and combined statement of budgetary resources for the years
then ended (hereinafter collectively referred to as the “financial statements”) were
audited. The audit included an examination, on a test basis, of evidence supporting the
amounts and disclosures in the financial statements. The audit also included assessing
the accounting principles used and significant estimates made by management, as well as
evaluating the overall principal statements’ presentation.

The CG-LLP Independent Auditor’s Report concluded that the FEC’s financial
statements present fairly, in all material respects, the financial position of the FEC as of
September 30, 2008 and 2007, and its net cost, changes in net position, budgetary
resources, and custodial activity for the years then ended in conformity with accounting
principles generally accepted in the United States of America.
Report on Internal Control

CG-LLP’s planning and performance of the audit included consideration of the FEC’s
internal control over financial reporting as a basis for designing audit procedures for the
purpose of expressing an opinion on the financial statements and to comply with OMB
Bulletin 07-04, as amended, but not for the purpose of expressing an opinion on the
effectiveness of FEC’s internal control over financial reporting. The auditors did not test
all internal controls relevant to operating effectiveness as broadly defined by the Federal
Managers’ Financial Integrity Act (FMFIA) (31 U.S.C. 3512), such as those controls
relevant to ensuring efficient operations. Consequently CG-LLP did not express an
opinion on the agency’s internal control over financial reporting.

The American Institute of Certified Public Accountants (AICPA) established standards
on communicating deficiencies related to internal control over financial reporting
identified by the auditors. As defined by the AICPA, a control deficiency exists when
the design or operation of a control does not allow the agency’s management or its
employees, in the normal course of performing their assigned duties, to prevent or detect
misstatements on a timely basis.

Auditors determine whether an internal control deficiency is a significant deficiency or a
material weakness based on the factors of likelihood and magnitude. A significant
deficiency is a control deficiency, or combination of control deficiencies, that adversely
affects the agency’s ability to initiate, authorize, record, process, or report financial data
reliability in accordance with generally accepted accounting principles such that there is
a more than a remote likelihood that a misstatement of the agency’s financial statements
that is more than inconsequential will not be prevented or detected by the agency’s
internal controls. A material weakness is a significant deficiency, or combination of
significant deficiencies, that results in more than a remote likelihood that a material
misstatement of the financial statements will not be prevented or detected by the
agency’s internal controls.

CG-LLP identified a significant deficiency in the area of:
         • Information Technology (IT)

CG-LLP identified a material weakness in the area of:
         • Financial Accounting and Reporting Controls

Report on Compliance and Other Matters

FEC management is responsible for complying with laws and regulations applicable to
the agency. To obtain reasonable assurance about whether FEC’s financial statements
are free of material misstatements, CG-LLP performed tests of compliance with certain
provisions of laws and regulations, non-compliance which could have a direct and
material effect on the determination of financial statement amounts, and certain other
laws and regulations specified in OMB Bulletin No. 07-04, as amended. Tests of


                                              2

compliance were limited to these provisions and CG-LLP did not test compliance with all
laws and regulations applicable to FEC.

The results of CG-LLP’s tests of compliance with laws and regulations described in the
audit report disclosed an instance of reportable noncompliance that is required to be
reported under U.S. generally accepted government auditing standards or OMB guidance.

CG-LLP identified a reportable noncompliance in the area of:
         • The Federal Managers’ Financial Integrity Act (FMFIA)

Audit Follow-up

The report on internal control contains recommendations to address weaknesses found by
the auditors. Management was provided a draft copy of the audit report for comment and
generally concurred with the findings and recommendations. In accordance with OMB
Circular No. A-50, Audit Follow-up, revised, the FEC’s corrective action plan is to set
forth the specific action planned to implement the recommendations and the schedule for
implementation. The Commission has designated the Chief Financial Officer to be the
audit follow-up official for the financial statement audit.

OIG Evaluation of Clifton Gunderson LLP’s Audit Performance

We reviewed CG-LLP’s reports and related documentation and made necessary inquiries
of its representatives. Our review was not intended to enable the OIG to express, and we
do not express, an opinion on the FEC’s financial statements, provide conclusions about
the effectiveness of internal control or conclusions on FEC’s compliance with laws and
regulations. However, the OIG review disclosed no instances where CG-LLP did not
comply, in all material respects, with Government Auditing Standards.

We appreciate the courtesies and cooperation extended to Clifton Gunderson LLP and the
OIG staff during the audit. If you should have any questions concerning these reports,
please contact my office on (202) 694-1015.




                                                   Lynne A. McFarland
                                                   Inspector General

Attachments

Cc: 	   Acting Staff Director
        General Counsel
        Acting Chief Financial Officer
        Chief Information Officer
        Accounting Officer

                                           3

                                  Independent Auditor’s Report


To the Inspector General of the
 Federal Election Commission


We have audited the balance sheets of the Federal Election Commission (FEC) as of
September 30, 2008 and 2007, and the related statements of net cost, changes in net position,
budgetary resources, and custodial activity for the years then ended (hereinafter collectively
referred to as the “financial statements”). These financial statements are the responsibility of
FEC’s management. Our responsibility is to express an opinion on these financial statements
based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the
United States of America; the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States; and Office of
Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial
Statements, as amended. Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the financial statements are free of material misstatement.
An audit includes examining, on a test basis, evidence supporting the amounts and disclosures
in the financial statements. An audit also includes assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial
statements’ presentation. We believe our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of FEC as of September 30, 2008 and 2007, and its net cost, changes in
net position, budgetary resources, and custodial activity for the years then ended in conformity
with accounting principles generally accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our reports dated
November 7, 2008 on our consideration of FEC’s internal control over financial reporting, and on
our tests of FEC’s compliance with certain provisions of laws and regulations and other matters.
The purpose of those reports is to describe the scope of our testing of internal control over
financial reporting and compliance and the results of that testing, and not to provide an opinion
on the internal control over financial reporting or on compliance. Those reports are an integral
part of our audit performed in accordance with Government Auditing Standards and should be
considered in assessing the results of our audit.

The information in the Management’s Discussion and Analysis section is not a required part of
the financial statements, but is supplementary information required by accounting principles
generally accepted in the United States of America. We have applied certain limited procedures,
which consisted principally of inquiries of management regarding the methods



11710 Beltsville Drive
Suite 300
Calverton, MD 20705-3106
tel: 301-931-2050
fax: 301-931-1710                                   1
www.cliftoncpa.com                  Offices in 17 states and Washington, DC
of measurement and presentation of this information. However, we did not audit this information
and, accordingly, we express no opinion on it.

Our audits were conducted for the purpose of forming an opinion on the financial statements
taken as a whole. The information in the Message from the Chairman, Performance Section,
and Other Accompanying Information is presented for purposes of additional analysis and is not
required as part of the financial statements. This information has not been subjected to auditing
procedures and, accordingly, we express no opinion on it.




Calverton, Maryland 

November 7, 2008 





                                               2

          Independent Auditor’s Report on Internal Control Over Financial Reporting


To the Inspector General of the
    Federal Election Commission

We have audited the financial statements of the Federal Election Commission (FEC) as of and
for the year ended September 30, 2008 and have issued our report thereon dated
November 7, 2008. We conducted our audit in accordance with the auditing standards generally
accepted in the United States of America; the standards applicable to financial audits contained
in Government Auditing Standards, issued by the Comptroller General of the United States;
and, applicable provisions of Office of Management and Budget (OMB) Bulletin No.
07-04, Audit Requirements for Federal Financial Statements, as amended.

The management of FEC is responsible for establishing and maintaining internal control to
achieve the objectives of effective and efficient operations, and reliable financial reporting. In
planning and performing our audit, we considered FEC’s internal control over financial reporting
as a basis for designing our audit procedures for the purpose of expressing our opinion on the
financial statements and to comply with OMB Bulletin 07-04, as amended, but not for the
purpose of expressing an opinion on the effectiveness of FEC’s internal control over financial
reporting. We did not test all internal controls relevant to operating effectiveness as broadly
defined by the Federal Managers’ Financial Integrity Act (FMFIA) (31 U.S.C. 3512), such as
those controls relevant to ensuring efficient operations. Accordingly, we do not express an
opinion on the effectiveness of FEC’s internal control over financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose
described in the preceding paragraph and would not necessarily identify all deficiencies in
internal control over financial reporting that might be significant deficiencies or material
weaknesses. As discussed below, we identified certain deficiencies in internal control over
financial reporting that we consider to be a material weakness and a significant deficiency.

A control deficiency exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent or detect misstatements on a timely basis. A significant deficiency is a control
deficiency, or combination of control deficiencies, that adversely affect the entity’s ability to
initiate, authorize, record, process, or report financial data reliability in accordance with
generally accepted accounting principles such that there is more than a remote likelihood that a
misstatement of the entity’s financial statements that is more than inconsequential will not be
prevented or detected by the entity’s internal control. We consider the deficiency in Information
Technology described below to be significant deficiency in internal control over reporting.

A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the financial statements
will not be prevented or detected by the entity’s internal controls.


11710 Beltsville Drive
Suite 300
Calverton, MD 20705-3106
tel: 301-931-2050
fax: 301-931-1710                            Page 1 of 17
www.cliftoncpa.com               Offices in 17 states and Washington, DC
Our consideration of the internal control over financial reporting was for the limited purpose
described in the second paragraph of this section and would not necessarily identify all
deficiencies in the internal control that might be significant deficiencies and, accordingly, would
not necessarily disclose all significant deficiencies that are also considered to be material
weakness. However, we believe that the significant deficiency in Financial Accounting and
Reporting Controls described below is a material weakness.

                                *************************************

MATERIAL WEAKNESS

I.     Financial Accounting and Reporting Controls (Repeat Modified Finding)

       The Accountability of Tax Dollars Act of 2002 (ATDA) extends to FEC a requirement to
       submit to the Congress and the Director of the Office of Management and Budget (OMB)
       audited financial statements. OMB Circular A-136, Financial Reporting Requirements,
       defines the form and content of financial statements to be prepared by the agency. To
       accomplish the objective of complying with the ATDA, the agency is required to develop
       a system to prepare a complete set of financial statements on a timely basis in
       accordance with generally accepted accounting principles. The statements are to result
       from an accounting system that is an integral part of an integrated financial management
       system containing sufficient structure, effective internal control and reliable data.
       Financial reporting also consists of policies and procedures related to the processing
       and summarizing of accounting entries, and the preparation of financial statements.

       Below are descriptions of the control deficiencies within FEC’s financial reporting
       environment:

       A. Insufficient Resources and Personnel w 	 ith Appropriate Federal Accounting
          and Reporting Skill Sets (New Finding)

           FEC did not have adequate resources and employees with appropriate skills sets to
           handle financial management accounting and reporting. There was turnover in key
           financial positions during the year and adequate resources were not always available
           to fill the vacancies. For example, the staff accountant position has been vacant
           since March 2008. This position is responsible for performing monthly reconciliations
           and calculating accrual and property, plant and equipment amounts reported on the
           financial statements. FEC has not developed a program to cross train other Office of
           Chief Financial Officer (OCFO) personnel in performing these tasks and contractors
           hired to perform some of these duties were done so intermittently throughout the
           year. As a result, the Accounting Officer had to take on some of these responsibilities
           leaving FEC with insufficient resources to effectively administer quality assurance
           procedures within their financial reporting environment.

           This deficiency was aggravated by the migration of the agency’s accounting and
           financial reporting operations to a service provider during FY 2008. FEC’s
           understanding of key processes, controls and reports utilized by the service provider
           is on-going and was not obtained timely enough to adequately assess associated
           control risks and develop or redesign internal controls to mitigate those risks. These
           deficiencies are key factors in many of the weaknesses in financial reporting as
           described further in this report.


                                           Page 2 of 17
   GAO Standards for Internal Control in the Federal Government states “People are
   what make internal control work. The responsibility for good internal controls rests
   with all managers. Management sets the objectives, puts the control mechanisms
   and activities in place, and monitors and evaluates the control. However, all
   personnel in the organization play important roles in making it happen”. Moreover,
   “All personnel need to possess and maintain a level of competence that allows them
   to accomplish their assigned duties, as well as understand the importance of
   developing and implementing good internal control. Management needs to identify
   appropriate knowledge and skills needed for various jobs and provide needed
   training, as well as candid and constructive counseling, and performance appraisals.”

   The need for employees with analytical and federal accounting and reporting
   competencies will only increase as FEC further integrates its financial management
   system. Without the adequate staffing levels and the proper skill sets, the FEC will
   continue to encounter challenges in the financial reporting process including
   preparing financial reports in a timely manner, and consistent with applicable laws
   and regulations.

   Recommendations:

   1. 	Fill vacant positions within the OCFO as soon as possible. Ensure that the
       individuals possess analytical, Federal accounting and financial reporting
       knowledge and experience to enhance the FEC’s ability to comply with
       accounting and financial reporting standards.

   2. 	 Evaluate the resources and appropriate skills needed throughout the agency to
        meet FEC’s financial management and reporting responsibilities and implement a
        plan on achieving the results and recommendations of the evaluation.

   3. 	 Ensure that appropriate and on-going training is provided to FEC employees on
        federal accounting and reporting and the accounting service provider’s financial
        system. Also, ensure OCFO personnel are properly cross-trained in department
        activities.

   Management Response:

   Management generally concurs with the finding and recommendations. FEC
   management is committed to improving its internal control and accordingly, will
   develop a corrective action plan to address the issues identified.

B. Inadequate Financial Statement Preparation and Reporting (Modified Repeat
   Finding)

   OMB Circular A-136, Financial Reporting Requirements, “preparation of the annual
   financial statements is the responsibility of the agency’s management. In carrying out
   this responsibility, each agency chief financial officer should prepare a policy bulletin
   or guidance memorandum that guides the agency’s fiscal and management
   personnel in the preparation of the annual financial statements.” The existence of
   written procedures will provide structure and accountability for the financial



                                   Page 3 of 17
statements preparation and review processes. They also help ensure activities are
carried out in accordance with management directives.

Our audit disclosed the following control deficiencies in FEC’s financial statement
preparation and reporting process. Many of these deficiencies were identified during
the prior year audit. FEC’s audit follow-up process was ineffective in resolving these
deficiencies in a timely manner.

•	 FEC did not have a comprehensive policy bulletin or guidance memorandum as
   required by OMB Circular A-136. The lack of formalized policies and procedures
   is a contributing factor for the additional control deficiencies described below.

•	 Accounting entries recorded in the accounting system or posted to the financial
   statements as “on-top” adjustments were not reviewed timely by FEC or the
   review was not independently performed by someone other than the preparer.
   Other controls in place such as management’s review of the financial statements
   were ineffective in detecting incorrect accounting entries made by the service
   provider. Further, an audit trail supporting the entry was not properly maintained.
   Lack or inadequate internal control increases the risk of financial statement
   misstatements. Our audit identified accounting posting errors related to the
   following transactions:

   ¾	 The June 30, 2008 financial statements improperly included:
            o	 $1.5 million in accrued payroll costs;
            o	 $769,314 in advanced payments to GSA;
            o	 $41,530,546 in budget authority temporarily unavailable during the
                continuing resolution period; and
            o	 Accrued employer contributions and payroll taxes costs.

   ¾	 The Draft September 30, 2008 financial statements provided included:
            o	 Approximately $2.6 million of collections from custodial activity in
                 Fund Balance with Treasury and the Custodial Liability line items
                 on the Balance Sheet improperly; and
            o	 Adjustments made by the service provider to the trial balance,
                 after conversion, which impacted the Statement of Budgetary
                 Resources for Expired Allotments were not sufficiently
                 documented.

•	 FEC has not established a formalized timeline for completing key processes and
   controls related to the financial statement process. For example, we noted that
   the Finance Office Checklist detailing month end closing and financial statement
   preparation procedures was not prepared throughout the year. Furthermore,
   control activities, such as fluctuation analysis and relationship testing, were not
   finalized until after the financial statements were issued to the auditors for audit.

•	 A mechanism for tracking manual accounting entries sent to the service provider
   was not developed, which prevented FEC from being able to verify accounting
   entries were posted as intended or properly.




                               Page 4 of 17
As a result of the control deficiencies noted above, the financial statements provided
for audit contained many inconsistencies, errors and typos throughout the document.
We also noted that the financial statements provided were inconsistent with the
guidance issued by OMB Circular A-136. Although the FEC has corrected all the
items identified through the audit process, adequate controls were not in place to
sufficiently detect such mistakes in a timely manner.

Recommendations:

4. 	Formalize and periodically update policies and procedures to a) ensure
    segregation of duties, b) provide guidance to management and staff in recording
    both recurring and unique transactions, including budgetary accounts, and c)
    provide guidance to management and staff in executing the financial statement
    preparation process in a manner that enhances the timeliness of financial
    statement preparation and minimizes the risk of preparing inaccurate financials.

5. 	 Implement control activities to help ensure accounting transactions are recorded
     correctly, timely and are properly reviewed and adequate support documentation
     is maintained. Some of these control activities should include, but not be limited
     to:

   •	 Improving analytical and quality control review of journal vouchers,
      reconciliations and the financial statements, including interim financial
      statements. Procedures should include independent supervisory review of
      controls performed by someone other than the preparer.
   •	 Developing management’s expectations for fluctuation analysis, which
      includes setting the criteria for variances considered significant. Each
      expectation that is not met should be researched and results collaborated by
      data. Analytical tools that could be used are ratio analysis and trend analysis,
      as well as predictive techniques such as calculation of an expected balance.
      Results should be documented and maintained for management review and
      audit purposes.
   •	 Implementing proper and timely cut-off controls from processing transactions
      and in preparing the financial statements to allow for management’s timely
      analysis of financial data and for audit purposes.
   •	 Researching the accounting treatment of unique and non-reoccurring
      transactions and seeking specific guidance from accounting standard-setters
      from the beginning to ensure the recording of such events are properly
      included in the financial statement account balances and to ensure accuracy
      and transparency of financial accountable events.

6. Establish
   	           formalized policies and procedures for performing continuous
   assessment of risk factors associated with financial reporting, evaluating relevant
   controls and developing or redesigning controls to mitigate risks. These policies
   should include a well-defined documentation process that contains an audit trail,
   verifiable results, and specify retention periods so that someone not connected
   with the procedures can understand the assessment process.

7. 	 Enforce the use of the Finance Office Check List throughout the entire fiscal
     year.



                               Page 5 of 17
   8. 	 Establish a mechanism for tracking manual journal entries sent to the service
        provider and maintaining associated support documents.

   9. 	 Develop or redesign controls that strengthen the accountability structure related
        to the process for resolving audit findings

   Management Response:

   Management generally concurs with the finding and recommendations. FEC
   management is committed to improving its internal control and accordingly, will
   develop a corrective action plan to address the issues identified.

C. Integrate Financial Management System (Modified Repeat Finding)

   FEC utilizes the general ledger and core financial management system (general
   ledger system) of its accounting service provider. The general ledger system is not
   capable of generating most user reports for data analysis on a real time basis. Users
   have to request from the accounting service provider some basic reports, which are
   generated by another software application.

   Other financial management systems used at FEC include excel spreadsheets,
   database applications, and PeopleSoft (PS). These systems are used to accumulate
   and summarize data for the following financial transactions, all of which are material
   to FEC’s financial statements:

      •	 Collections, Accounts Receivable, and Custodial Liability specific to Fines
         and Penalties;
      •	 Property and equipment, accumulated depreciation, and depreciation
         expense;
      •	 Obligations; and
      •	 Payroll and time attendance reporting.

   None of these FEC financial management systems are interfaced with the general
   ledger system. OMB Circular No. A-127, Financial Management Systems, requires
   that each agency establish and maintain a single integrated financial management
   system. Without a single integrated financial management system to ensure timely
   and accurate financial data, poor policy decisions may occur due to inaccurate or
   untimely information. Managers are less likely to be able to report accurately to the
   President, Congress, and the public on Government operations in a timely manner.
   And, scarce resources are more likely to be directed toward the collection of
   information rather than to delivery of the intended programs.

   As a result of these systems not being integrated, significant time is required to
   compile the information. In addition to gathering the data from the offices, the OCFO
   manually incorporates the information into each stand alone system in order to
   generate the necessary documentation to support the balances reported on the
   financial statements. For example, the OCFO must request accounts receivable
   information from three divisions since there is no mechanism in place to
   automatically notify the OCFO that a fine or penalty was assessed. After the OCFO
   obtains the relevant information, which may not always be received in a timely



                                  Page 6 of 17
manner, the data is keystroked into a database. A journal entry is prepared for
submission to the service provider to record the details into the accounting system.
Given the number of times the information is separately recorded into different
systems, there is an increased risk for input error. A monthly reconciliation is
performed of the accounts receivable, however, without the staff accountant, as
mentioned above, the recording of transactions may not always occur timely or
accurately.

Another example where the lack of an integrated financial system impacts efficiency
pertains to the recording of obligations. The FEC has improved its procurement
operations from the prior year by converting to a web-based procurement system
that requires all purchase requests to be processed electronically, which alleviates
the duplication of entry in preparing the obligating document. However, the
procurement system is not integrated to the financial management system.
Therefore, several areas for error still exist. Specifically, the obligating document is
provided via e-mail to the Finance Office for review and submission to the service
provider. Should the Procurement Office forget to send the obligating document to
the Finance Office, there is an increased risk that the obligation does not get
recorded in a timely manner or at all. Once the Finance Office receives the obligating
document, they then print the document to submit the hard copy document to the
service provider. At this time, the FEC does not send the document to the service
provider electronically. Therefore, this process further increases the risk that the
obligation may not be recorded timely or at all. Finally, once the service provider
receives the obligating document, they keystroke in the relevant financial information
into the accounting system, providing for the opportunity for an input error.

Having a single, integrated financial management system does not necessarily mean
having only one software application within each agency covering all financial
management system needs. Also, it does not mean that all information is physically
located in the same database. Rather, a single, integrated financial management
system is a unified set of financial systems linked together electronically in an
efficient and effective manner to provide agency-wide financial system support.
Integration means that the user is able to have one view into systems such that, at
whatever level the individual is using the system, he or she can obtain needed
information efficiently and effectively through electronic means. Interfaces are
acceptable as long as the supporting detail is maintained and accessible to
managers. Interface linkages must be electronic unless the number of transactions is
so small that it is not cost beneficial to automate the interface. Easy reconciliations
between systems, where interface linkages are appropriate, must be maintained to
ensure data accuracy.

Without these systems being integrated, controls surrounding the processing,
recording and review of financial transactions become much more critical and require
greater resources to ensure completeness and accuracy. FEC management
continues to place its emphasis on the compilation of the financial and performance
data, but due to the lack of resources it is not capable of sufficiently performing the
reviews needed to alleviate the control risk associated with the lack of an integrated
financial management system.




                                Page 7 of 17
          Recommendation:

          10. Re-evaluate if interfacing its standalone financial management systems with the
              service provider’s system is feasible and/or cost effective. If not feasible and/or
              cost effective, consider the subsystems used by the service provider’s financial
              management systems.

          Management Response:

          Management generally concurs with the finding and recommendations. As of
          February 2008, the FEC transitioned the processing of its accounting transactions to
          an OMB-certified line of business provider. FEC management will evaluate its stand-
          alone financial management systems and develop a corrective action plan to
          address the issues identified.


These deficiencies in internal control may adversely affect any decision by management that is
based, in whole or in part, on information that is inaccurate because of these deficiencies.
Unaudited financial information reported by FEC, including budget information, also may contain
misstatements not prevented or detected because of these deficiencies.

                               *************************************


SIGNIFICANT DEFICIENCY

II.    Information Technology (IT) (Modified Repeat Finding)

       A. Commission-Wide Security Administration Needs To Be Enhanced (Repeat
          Finding)

          An entity-wide security management program should be in place to establish a
          framework and continuing cycle of activity to manage security risks, develop security
          policies, assign responsibilities, and monitor the adequacy of computer security
          related controls. It should also represent the foundation for an entity’s security control
          structure and a reflection of senior management’s commitment to addressing
          security risks.

          During our Fiscal Year 2008 review of FEC’s security program, we noted that FEC
          made progress in addressing prior years’ findings, notably a contract was awarded
          on September 16, 2008 to certify and accredit its major applications and general
          support systems. Also, FEC had developed its Disaster Recovery Plan. However,
          continued efforts are required especially in the areas of security administration and
          oversight. Specifically, we noted that FEC had not fully implemented all security
          procedures and standards; had not finalized and implemented an information
          classification policy; had not finalized and implemented its certification and
          accreditation policy. Furthermore, FEC is currently in the process of developing a
          security plan for its Local Area Network (LAN) that incorporates the results of the
          LAN Risk Assessment




                                          Page 8 of 17
Office of Management and Budget (OMB) Circular No. A-130, Appendix III Security
of Federal Automated Information Resources, requires agencies to implement and
maintain a program to assure that adequate security is provided for all agency
information collected, processed, transmitted, stored, or disseminated in general
support systems and major applications.

Without an effective entity-wide security program plan, FEC has an increased risk
that security controls are inadequate and inconsistently applied. Such conditions may
lead to insufficient protection of sensitive data and high expenditures for controls
over low risk resources.

At the time of this review, FEC’s existing security program revealed weaknesses in
controls that expose the FEC’s financial management systems and data to
unauthorized access and/or modification. Security weaknesses noted included:

•	 FEC has not fully implemented a framework of policies and standards to mitigate
   risks associated with the management of its information resources. Although
   FEC has implemented the majority of its information security policies, it has not
   fully implemented all of the related procedures and standards. FEC has not
   finalized and implemented an information classification policy, as well as its
   certification and accreditation policy. (Repeat Finding)
•	 FEC is currently in the process of developing a security plan for its LAN that
   incorporates the results of the LAN Risk Assessment. However, the security plan
   is still in the development phase and has not been finalized and approved.
   (Repeat Finding)
•	 There are weaknesses in FEC’s program for the continuous monitoring and
   evaluation of the computer security policy and control effectiveness. FEC does
   not utilize corrective action plans for all internal reviews of security controls.
   (Repeat Finding)
•	 Major applications and mission critical general support systems have not been
   certified and accredited to ensure that they are operating according to FEC’s
   security requirements. (Repeat Finding).
•	 There is currently no process in place to ensure that contractors undergo
   background investigations before obtaining access to FEC systems or data.
   (Repeat Finding)
•	 The PeopleSoft application is currently running on an Oracle Release 8i
   Relational Database Management System that is no longer supported by the
   vendor. (Repeat Finding)

Recommendations:

11. Finalize and implement FEC’s information classification policy and certification
    and accreditation policy along with any accompanying standards.

12. Incorporate the results of risk assessments into FEC security plans.

13. Utilize corrective action plans for	 all reviews of security controls whether
    performed internally or by a third-party.



                               Page 9 of 17
14. Certify and accredit all major applications and mission critical general support
    systems.

15. Implement a process to ensure that background investigations are performed on
    all contractors prior to granting them access to FEC system resources.

16. FEC should move all of its PeopleSoft financial processing capabilities to GSA or
    update its existing platform to vendor-supported versions/releases.

Management Response:

FEC agrees with the majority of elements within this finding. The FEC awarded a
contract to certify and accredit its major applications and general support systems on
September 16, 2008. On September 23, 2008 a formal Kick-Off meeting was held to
formally begin work on the contract. Since that time the vendor has provided the
Contracting Officer Technical Representative (COTR) with an updated project plan
that describes how and when certification and accreditation objectives are to be
achieved. The vendor is currently updating system characterizations and performing
a system classification for each major application and general support system. The
Certification and Accreditation contract specifies line items to address the following
issues identified within this finding:
    •	 Finalizing and implementing a modified certification and accreditation and
        information classification policies.
    •	 Updating current security plans by incorporating the results of the recently
        completed risk assessment.
    •	 Developing a Program of Actions and Milestones to monitor and evaluate the
        internal review of security controls.
    •	 Certify and Accredit FEC major applications and general support systems.

On September 29, 2008 the Director of Human Resources addressed the issue of
contractor background investigations by issuing the following policy “that all
contracting personnel from this date forward (September 29, 2008) must obtain a
background investigation prior to obtaining access to FEC systems.”

With respect to Oracle 8i, due to legacy issues associated with some FEC
applications the current version of Oracle 8i is required. Although the vendor no
longer provides support for this version of Oracle it does provide limited support
which includes assisting customers with work-arounds to issues that may arise. In
addition the FEC has built a considerable amount of experience and internal
expertise over the years this product has been in its inventory. In addition to its
considerable experience, the FEC has tested and maintains Oracle 8i application
and data backups allowing it to restore any databases to a usable state in the event
of any mishap.

The FEC recognizes the risk associated with maintaining a product with limited
support. Accordingly the FEC is relying upon its considerable internal expertise,
restricted access to only a few persons, backup and restoral capabilities and
Oracle’s limited support as compensating factors until the application can be
removed from its inventory.




                              Page 10 of 17
B. Disaster Recovery and Continuity of Operations Plan Need to be Developed
   (Repeat Finding)

   Losing the capability to process and protect information maintained on FEC’s
   computer systems can significantly impact FEC’s ability to accomplish its mission.
   The purpose of disaster recovery and continuity of operations controls is to ensure
   that, when unexpected events occur, critical operations continue without interruption
   or critical operations are promptly resumed. To achieve this objective, FEC should
   have procedures in place to protect information resources and minimize the risk of
   unplanned interruptions and a plan to recover critical operations should interruptions
   occur. These plans should consider activities performed at FEC’s general support
   facilities (e.g. FEC’s local area network, wide area network, and telecommunications
   facilities), as well as the activities performed by users of specific applications. To
   determine whether the disaster recovery plans will work as intended, FEC should
   establish and periodically test the capability to perform its functions in disaster
   simulation exercises.

   Our review of the service continuity controls identified that FEC has not developed a
   Continuity of Operations Plan (COOP) to support the continuation of its core mission
   in the event of a disaster or other interruption that renders the FEC’s facilities
   unusable. (Repeat Finding)

   Recommendation:

   17. Develop and implement a Disaster	 Recovery Continuity of Operations Plan
       (COOP).

   Management Response:

   Management agrees with the issue presented in this finding, and in fiscal year 2008
   implemented a multiple year three phase project plan to develop and implement a
   FEC-Wide Continuity of Operations Plan (COOP). Phase One consisted of
   developing an Office of Information Technology (OIT) Disaster Recovery Plan (DRP),
   Phase Two (Kick Off Meeting September 29, 2008) consists of preparing for the
   migration of the OIT DRP into a COOP, and Phase Three consists of implementing a
   Commission wide COOP. Bear in mind that, Phase Three is contingent upon
   receiving adequate funding and senior management support.

C. Logical Access Control Needs to be Strengthened (Modified Repeat Finding)

   Achieving an adequate level of information protection is highly dependent upon
   consistently maintaining effective access controls, system software and configuration
   management controls. Access controls limit and monitor access to computer
   resources (i.e., data files, application programs, and computer-related facilities and
   equipment) to the extent necessary to provide reasonable assurance that these
   resources are protected against waste, loss, unauthorized modification, disclosure,
   or misappropriation. Access controls include logical controls, such as security
   software programs designed to prevent or detect unauthorized access to sensitive
   files. Without proper controls, there is a risk that security features could be
   inadvertently or deliberately omitted or "turned off" or that processing irregularities or
   malicious code could be introduced.


                                   Page 11 of 17
           Our testing of internal controls identified a weakness related to the information
           protection in FEC’s information systems environment. These include FEC’s midrange
           computer systems (e.g. servers) and applications. Weaknesses noted include the
           following:

           We noted the following control weaknesses over monitoring access to FEC’s
           networks, systems and physical facility:

                   o	 4 out of 10 separated employees still have active network accounts; and
                   o	 There is currently no exit clearance process in place for contractors to
                      ensure that all FEC property is returned and all access permissions are
                      removed.

           Recommendations:

           18. FEC should promptly terminate access to	 FEC resources for separated
               employees. Procedures should be documented and implemented to coordinate
               separations between Human Resources and IT management to ensure user
               accounts are immediately disabled upon termination.

           19. Implement an exit clearance process to track separated FEC contractors and
               ensure that their access permissions are removed and all FEC property has been
               returned.

           Management Response:

           Although the FEC has a documented process in place to terminate FEC resources
           and collect property from separated employees and contractors, it concurs that this
           process can be improved. To this end, the FEC has established a working group to
           implement more stringent procedures to ensure that network access is appropriately
           curtailed. In addition OIT will soon be implementing an automated information
           system to better deal with the issues identified in this finding. The New FEC Access
           System (FAS) includes processes for full time employees, interns, and contractors
           and will eliminate the discrepancies described in this finding. FAS will track staff and
           contractors from the start of their employment or contract at the Commission to exit
           and allow managers to request and document changes in network and application
           access. FAS will enable a higher degree of coordination among offices to ensure that
           user accounts are disabled and equipment is properly returned per FEC policy. FAS
           will retain all historical information regarding; account creation, changes to access
           rights, system resources, and termination information regarding a particular staff or
           contractor. FAS is now in the final testing stages and is tentatively scheduled for full
           implementation by December 1, 2008.

III.   Other Matter

As required by OMB Bulletin No. 07-04, as amended, we compared the material weaknesses
disclosed during the audit with those material weaknesses reported in the FEC’s FMFIA report
that relate to control over financial reporting. Our audit identified a material weakness related to
the financial statement preparation and reporting as reported above that was not included in the
FEC’s FMFIA report.



                                           Page 12 of 17
IV.    Status of Prior Year Conditions

We have reviewed the status of the FEC’s corrective actions with respect to the findings and
recommendations from the prior year’s report on internal controls. We have attached Appendix
A to our report that presents the status of prior year findings and recommendations.


                                 ********************************

FEC's response to the material weakness and significant deficiency identified in our audit is
presented within the body of our report. We did not audit the FEC's response and, accordingly,
we express no opinion on it.

In addition to the material weakness and significant deficiency described above, we noted
certain matters involving internal control and its operation that we reported to the management
of the FEC in a separate letter dated November 7, 2008.

This report is intended solely for the information and use of the management of the FEC, the
FEC Office of Inspector General, Government Accountability Office, the OMB, and the U.S.
Congress, and is not intended to be and should not be used by anyone other than these
specified parties.




Calverton, Maryland 

November 7, 2008 





                                         Page 13 of 17
                                    APPENDIX A 

                          FEDERAL ELECTION COMMISSION 

               STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS

                                 September 30, 2008


 PY Rec.       Condition/Audit
                                           Recommendation                    Current Status
   No.             Area
                                     Material Weakness
I.   Integrated Financial Management System
     1.       Integrated        Assess the extent of financial            Recommendation
              Financial         management system integration             closed.
              Management        needed for existing systems while
              System            outsourcing the accounting
                                operations to a third party service
                                provider.
     2.       Integrated        Implement control activities to           Recommendation
              Financial         compensate for the lack of an             open: reported in FY
              Management        integrated financial management           2008 as a material
              System            system and to ensure that                 weakness.
                                accounting transactions are
                                recorded correctly, timely reviewed
                                and with adequate supporting
                                documentation. Some of these
                                controls activities should include, but
                                not limited to:
                                • Improving preparation and
                                    review of procurement
                                    documents, including purchase
                                    requests, purchase
                                    orders/contracts, and related
                                    supporting documentation;
                                • Improving analytical and quality
                                    control review of journal
                                    vouchers, reconciliations and the
                                    financial statements, including
                                    interim financial statements;
                                • Implementing proper and timely
                                    cut-off controls for processing
                                    transactions and in preparing the
                                    financial statements to allow for
                                    management’s timely analysis of
                                    financial data and for audit
                                    purposes; and
                                • Establish a timeline for timely
                                    receipt of completed accounts
                                    receivable schedules by the
                                    finance office from the program
                                    offices.
     3.       Integrated        Ensure that the general ledger setup      Recommendation
              Financial         and posting model definitions are in      closed.
              Management        compliance with the latest
              System            transaction posting consistent with
                                USSGL guidance and policies for

                                          Page 14 of 15
                                 APPENDIX A 

                       FEDERAL ELECTION COMMISSION 

            STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS

                              September 30, 2008 


 PY Rec.    Condition/Audit
                                        Recommendation                     Current Status
   No.          Area
                               recording and classifying
                               transactions.
   4.      Integrated          Provide employee training on             Recommendation
           Financial           procurement, appropriation law,          open: reported in FY
           Management          budget execution, and financial          2008 as a material
           System              reporting, as applicable to ensure       weakness.
                               financial reporting and fund control
                               policies are consistently and
                               accurately executed.
   5.      Integrated          Ensure that FEC complies with            Recommendation
           Financial           regulatory agencies’ reporting           updated: reported in
           Management          requirements.                            FY 2008 management
           System                                                       letter
                                Significant Deficiencies
II. Information Technology
    6.      Security           Perform risk assessments, as part of     Recommendation
            Administration     FEC’s overall strategy to mitigate       closed
                               risks associated with its IT
                               environment.
   7.      Security            Finalize and implement FEC’s             Recommendation
           Administration      information classification policy and    open: reported in FY
                               certification and accreditation policy   2008 as a significant
                               along with any accompanying              deficiency.
                               standards.
   8.      Security            Incorporate the results of risk          Recommendation
           Administration      assessments into FEC security            open: reported in FY
                               plans.                                   2008 as a significant
                                                                        deficiency.
   9.      Security            Certify and accredit all major           Recommendation
           Administration      applications and mission critical        open: reported in FY
                               general support systems.                 2008 as a significant
                                                                        deficiency.
   10.     Security            Refine procedures to ensure that all     Recommendation
           Administration      newly hired employees undergo the        closed.
                               appropriate background                   Re-opened in FY 2008
                               investigations commensurate with         for New Contractors
                               the risk level of their position. FEC
                               should also ensure these
                               investigations are initiated within a
                               reasonable time of employment start
                               date.
   11.     Disaster recovery   Perform a BIA to formally identify       Recommendation
           & Continuity of     and prioritize all critical data and     closed
           Operations          operations on FEC’s networks and
                               the resources needed to recover
                               them if there is a major interruption



                                       Page 15 of 17
                               APPENDIX A 

                     FEDERAL ELECTION COMMISSION 

          STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS

                            September 30, 2008 


PY Rec.   Condition/Audit
                                       Recommendation                    Current Status
  No.         Area
                              or disaster.
 12.      Disaster recovery   Establish an alternate processing       Recommendation
          & Continuity of     site and incorporate the results of     closed
          Operations          the BIA into the contingency plan.

 13.      Disaster recovery   Develop a comprehensive                 Recommendation
          & Continuity of     contingency plan that incorporates      closed
          Operations          the results of the BIA and includes
                              the procedures and resources
                              necessary to restore FEC systems in
                              the event of a disaster. Ensure
                              emergency processing priorities are
                              established to assist in managing
                              disaster situations, and ensure once
                              developed, the plan is tested
                              annually and updated based on the
                              results of these tests.
 14.      Disaster recovery   Develop a COOP that addresses           Recommendation
          & Continuity of     measures and procedures to follow       open: reported in FY
          Operations          in the event of a long-term             2008 as a significant
                              interruption.                           deficiency.
 15.      Logical Access,     Transfer processing to a service        Recommendation
          System Software     provider or update existing platform    open: reported in FY
          and Change          to vendor-supported                     2008 as a significant
          Management          versions/releases.                      deficiency.
          Controls
 16.      Logical Access,     Write audit trails related to DBA       Recommendation
          System Software     activity to Operating Systems logs      closed
          and Change          and limit DBA’s access to these logs.
          Management
          Controls
 17.      Logical Access,     Maintain documentation to support       Recommendation
          System Software     the testing and approval of system      closed
          and Change          software changes.
          Management
          Controls
 18.      Logical Access,     Develop additional mitigating           Recommendation
          System Software     controls to ensure that PeopleSoft      closed
          and Change          passwords are in agreement with
          Management          FEC policy or ensure that if
          Controls            PeopleSoft processing is
                              outsourced, the third party maintains
                              password controls that comply with
                              FEC password policies.
 19.      Logical Access,     Promptly terminate access to FEC        Recommendation
          System Software     resources for separated employees.      open: reported in FY



                                      Page 16 of 17
                               APPENDIX A 

                     FEDERAL ELECTION COMMISSION 

          STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS

                            September 30, 2008 


PY Rec.    Condition/Audit
                                      Recommendation                    Current Status
  No.           Area
          and Change         Procedures should be documented         2008 as a significant
          Management         and implemented to coordinate           deficiency.
          Controls           separations between Human
                             Resources and IT management to
                             ensure user accounts are
                             immediately disabled upon
                             termination.
 20.      Logical Access,    Utilize access request forms that       Recommendation
          System Software    identify the user’s access level to     closed
          and Change         document user access rights to all
          Management         FEC systems and facilities.
          Controls           Additionally, FEC should periodically
                             review and recertify user access to
                             ensure current access is
                             commensurate with job
                             responsibilities.




                                    Page 17 of 17
                 Independent Auditor’s Report on Compliance and Other Matters


To the Inspector General of the
  Federal Election Commission

We have audited the financial statements of the Federal Election Commission (FEC) as of, and
for the year ended September 30, 2008, and have issued our report thereon dated November 7,
2008. We conducted our audit in accordance with the auditing standards generally accepted in
the United States of America; the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States; and
Office of Management and Budget (OMB) Bulletin 07-04, Audit Requirements for Federal
Financial Statements, as amended.

The management of FEC is responsible for complying with laws and regulations, and
government-wide policies applicable to FEC. As part of obtaining reasonable assurance about
whether FEC’s financial statements are free of material misstatements, we performed tests of
FEC’s compliance with certain provisions of laws and regulations, and government-wide
policies, non-compliance with which could have a direct and material effect on the determination
of financial statement amounts and certain other laws and regulations specified in OMB Bulletin
07-04, as amended. We limited our tests of compliance to these provisions and we did not test
compliance with all laws and regulations applicable to FEC. Providing an opinion on compliance
with certain provisions of laws and regulations, and government-wide policies was not an
objective of our audit, and, accordingly, we do not express such an opinion.

The results of our tests of compliance with applicable laws and regulations, and government-
wide polices described in the preceding paragraph disclosed an instance of reportable
noncompliance that is required to be reported under U.S. generally accepted government
auditing standards or OMB guidance and is described in the following paragraphs.

The Federal Managers' Financial Integrity Act (FMFIA)

The FMFIA requires agencies to establish management controls over their programs and
financial systems as stated in the following sections of the Act:

•	 Section 2 seeks to assess internal controls necessary to ensure obligations and costs are in
   compliance with applicable law; funds, property, and other assets are safeguarded against
   waste, loss, unauthorized use, or misappropriation; and revenues and expenditures are
   properly recorded and accounted for to permit the preparation of accounts and reliable
   financial and statistical reports.

•	 Section 4 seeks to assess nonconformance with government-wide financial systems
   requirements.


11710 Beltsville Drive
Suite 300
Calverton, MD 20705-3106
tel: 301-931-2050
fax: 301-931-1710                                   1
www.cliftoncpa.com	                Offices in 17 states and Washington, DC
OMB Circular A-123, Management’s Responsibility for Internal Control, is issued under the
authority of the FMFIA (section 2). OMB Circular A-123 states that management is responsible
for establishing and maintaining internal control to achieve the objectives of effective and
efficient operations, reliable financial reporting, and compliance with applicable laws and
regulations. Management shall consistently apply the internal control standards to meet each of
the internal control objectives and to assess the internal control effectiveness.

OMB Circular A-127, Financial Management Systems, offers guidance in implementing FMFIA
(section 4). OMB Circular A-127 requires that “Financial management systems shall be
designed to provide for effective and efficient interrelationships between software, hardware,
personnel, procedures, controls, and data contained within the systems”.

The FEC has not fully complied with certain requirements of the FMFIA. See details in our
Independent Auditor’s Report on Internal Control, Sections I and II. The key items we identified
include:

•	 Insufficient resources and personnel with appropriate Federal accounting and reporting skill
   sets;
•	 Inadequate financial statement preparation and reporting controls;
•	 Financial management systems not fully integrated; and
•	 Weaknesses in information technology.

This report is intended solely for the information and use of the management of FEC, FEC
Office of Inspector General, GAO, OMB and Congress, and is not intended to be and should not
be used by anyone other than these specified parties.




Calverton, Maryland 

November 7, 2008 





                                               2

